TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                 Telecommunication Projects Need Improved
                  Contract Documentation and Management
                                Oversight



                                          March 5, 2007

                              Reference Number: 2007-20-030




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                               DEPARTMENT OF THE TREASURY
                                                   WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                               March 5, 2007


 MEMORANDUM FOR CHIEF INFORMATION OFFICER

 FROM:                          Michael R. Phillips
                                Deputy Inspector General for Audit

 SUBJECT:                       Final Audit Report – Telecommunication Projects Need Improved
                                Contract Documentation and Management Oversight
                                (Audit # 200620019)

 This report presents the results of our review of the Internal Revenue Service’s (IRS) use of the
 Department of the Treasury (Treasury) contract to procure telecommunication services. The
 overall objective of this review was to determine whether the IRS ensures telecommunication
 services acquired outside of the Treasury Communications System (TCS) contract are cost
 effective and do not duplicate services offered through the TCS contract. This review was part
 of the Treasury Inspector General for Tax Administration’s Fiscal Year 2006 Information
 Systems Programs audit plan for reviews on the adequacy and security of IRS technology.

 Impact on the Taxpayer
 As a collector of United States citizens’ tax obligations, it is imperative that the IRS effectively
 and efficiently manage its resources. Although one of the goals of the TCS program is to
 provide a cost-effective communications infrastructure, the IRS did not always document
 consideration of the TCS contract and provide effective oversight for major telecommunication
 investments. As a result, telecommunication projects may not have ensured the most efficient
 use of resources on behalf of taxpayers.

 Synopsis
 The TCS program was established to provide Treasury and its bureaus with a centralized
 network and management system to support its customers’ missions by providing a wide range
 of data communications1 services through a single contract vehicle. While Treasury does not

 1
     See Appendix V for a Glossary of Terms.
                         Telecommunication Projects Need Improved Contract
                              Documentation and Management Oversight




mandate use of the TCS contract by departments and bureaus when acquiring services, IRS
policies and procedures specify that the TCS contract be the first choice for data
communications. To ensure the Federal Government receives the best value product, the Federal
Acquisition Regulation2 requires that program managers promote full and open competition
among alternative sources for major system acquisitions and requires agencies to maintain
effective documentation of contract actions, including cost proposals from contractors.
As of September 28, 2006, the IRS had spent over
$62 million during Fiscal Year 2006 on acquiring
telecommunication data processing services outside of           The TCS contract was not
the TCS contract. Our review of these costs determined       considered for the ERAP. As a
that only the Enterprise Remote Access Project (ERAP),       result, the ERAP may not have
which provides secure remote network access for IRS            been developed in the most
employees and contractors, would have warranted             cost-effective  manner to ensure
                                                                efficient use of resources.
consideration of the TCS contract during the acquisition
process. Although the TCS contract offers a solution to
provide secure remote network access to employees,
Project documentation did not show that it was one of the contracting vehicles considered for the
ERAP. As a result, the acquisition may not have been completed in the most cost-effective
manner to ensure efficient use of resources.3
In addition, Treasury requires preparation of a consolidated Capital Asset Plan and Business
Case, commonly referred to as an Exhibit 300, for infrastructure-related information technology
costs (e.g., telecommunications). In June 2006, Treasury also required a separate (internal)
Exhibit 300 for any initiative that would otherwise qualify as a major investment to enable
improved transparency for Treasury investments and enhance accountability. Individual
initiatives for which the annual investment exceeds $5 million or the total life cycle cost exceeds
$50 million are considered a major investment. The internal Exhibit 300s are not forwarded to
the Office of Management and Budget as part of the Treasury’s information technology
Investment Portfolio.
The initial submission of internal Exhibit 300s was due to Treasury on October 15, 2006, even
though the guidelines were not received until June 2006. Capital Planning and Investment
Control (CPIC) organization personnel informed us that, while they prepared only three internal
Exhibit 300s based on discussions with Treasury, they would begin to review all infrastructure
projects in the development, modernization, and enhancement stage to determine whether
additional internal Exhibit 300s are needed. As a result, the IRS followed the prior practice of

2
  48 C.F.R. ch. 1 (2005).
3
  After discussing the results of the audit with IRS management, we received management comments advising that
the ERAP costs $6,000 less per year than the TCS solution. However, no supporting documentation was provided
and we did not verify the information.
                                                                                                                 2
                         Telecommunication Projects Need Improved Contract
                              Documentation and Management Oversight




including all expenditures for telecommunication services on its information technology
Investment Portfolio as a consolidated information technology infrastructure investment project
and prepared a consolidated Telecommunications Infrastructure Exhibit 300. The Exhibit 300
defined the investment type as steady state (indicating the expenditures were for operations and
maintenance) and reflected the total annual expenditure amount for telecommunications as
maintenance cost.
The Enterprise Networks organization spent nearly $18.7 million during Fiscal Years 2004
through 2006 for the ERAP and has budgeted another $10.6 million in Fiscal Year 2007.
Therefore, the Project may meet the IRS CPIC cost thresholds for a major information
technology investment, and an internal Exhibit 300 may need to be prepared as part of the
continuing CPIC organization review of infrastructure projects.
The classification of information technology investments has been reported previously as a
problem for the IRS. For example, in response to a prior audit report,4 the Chief Information
Officer agreed to review all Applications Development organization projects to ensure they were
properly classified as developmental or steady state and to assign the appropriate level of
executive oversight. Similarly, due to the new guidance, the Enterprise Networks organization’s
infrastructure projects need to be reviewed to identify those projects that are under development
and should be reclassified to ensure appropriate executive oversight and efficient use of
resources.

Recommendations
The Chief Information Officer should ensure project documentation supports consideration of
Treasury contracts during the procurement process when comparing alternative solutions for
telecommunication services. In addition, all (steady state and development, modernization, and
enhancement stage) information technology investments included in the Telecommunications
Infrastructure Exhibit 300 should be analyzed to identify projects under development that should
be classified as major information technology investments requiring increased executive
oversight and preparation of internal Exhibit 300s.

Response
IRS management agreed with all of our recommendations. The Chief Information Officer will
communicate to the Enterprise Networks organization the importance of following the enterprise
life cycle project process. This will ensure documentation indicates consideration of Treasury
contracts when comparing alternative solutions for telecommunication services. The CPIC

4
 The Electronic Fraud Detection System Redesign Failure Resulted in Fraudulent Returns and Refunds Not Being
Identified (Reference Number 2006-20-108, dated August 9, 2006).
                                                                                                               3
                      Telecommunication Projects Need Improved Contract
                           Documentation and Management Oversight




organization will provide training and guidance to Enterprise Networks organization project
managers and executives to ensure compliance with existing Treasury guidance that requires
infrastructure projects in the development, modernization, and enhancement phase of the life
cycle to develop internal Exhibit 300s if they meet the criteria for a major project. In addition,
the CPIC organization will review all projects in the Telecommunications Infrastructure Exhibit
300 to ensure proper classification. Management’s complete response to the draft report is
included as Appendix VI.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs), at
(202) 622-8510.




                                                                                                     4
                              Telecommunication Projects Need Improved Contract
                                   Documentation and Management Oversight




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Project Documentation Did Not Show the Treasury Communications
          System Contract Was Considered As an Acquisition Vehicle for
          Development of the Enterprise Remote Access Project ...............................Page 3
                    Recommendation 1:..........................................................Page 6

          Telecommunication Projects Were Considered Infrastructure Projects
          and Not Classified As Major Information Technology Investments ............Page 6
                    Recommendation 2:..........................................................Page 8


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 10
          Appendix II – Major Contributors to This Report ........................................Page 12
          Appendix III – Report Distribution List .......................................................Page 13
          Appendix IV – Analysis of Telecommunication Data Processing
          Services Expenditures Not Warranting Consideration of the Treasury
          Communications System Contract................................................................Page 14
          Appendix V – Glossary of Terms .................................................................Page 15
          Appendix VI – Management’s Response to the Draft Report ......................Page 17
       Telecommunication Projects Need Improved Contract
            Documentation and Management Oversight




                  Abbreviations

CPIC        Capital Planning and Investment Control
ERAP        Enterprise Remote Access Project
FY          Fiscal Year
IRS         Internal Revenue Service
LMSB        Large and Mid-Size Business
OMB         Office of Management and Budget
TCS         Treasury Communications System
TIAS        Treasury Internet Access Solution
VPN         Virtual Private Network
                          Telecommunication Projects Need Improved Contract
                               Documentation and Management Oversight




                                            Background

The Modernization and Information Technology Services organization is responsible for
delivering information technology services and solutions that support effective tax
administration. Within the Modernization and Information Technology Services organization,
the Enterprise Networks organization is responsible for providing all forms of
telecommunication services (e.g., voice, data, video, wireless) in the most efficient and effective
manner and managing the design and engineering of the telecommunication environment.
The Treasury Communications System (TCS) program was established to provide the
Department of the Treasury (Treasury) and its bureaus with a centralized network and
management system by providing a wide range of data communications1 services through a
single contract vehicle. Services provided through the TCS contractor include Internet access,
network security, and network operations and maintenance. The TCS program is funded through
the Treasury Working Capital Fund, which is used for programs that can provide common
administrative services that benefit multiple bureaus. The goals of such programs are to reduce
overhead costs, create economies of scale, and avoid duplication of services.
Services from the TCS program are obtained by agencies through the TCS contract that was
awarded in September 1995 to TRW.2 The contract is a 10-year Indefinite Delivery/Indefinite
Quantity contract with terms that allow for a 6-month extension. This type of contract
establishes the price of supplies and services at the onset of the contract. The TCS contract
expired in September 2005, but it has been extended until September 2007 due to delays in
awarding the new telecommunication services contract.
On May 4, 2004, Treasury issued a request for proposals to replace the TCS contract. The new
telecommunication services procurement, the Treasury Communications Enterprise, is estimated
to be worth potentially $1 billion over its expected 10-year life. However, awarding of the
Treasury Communications Enterprise contract has been pushed back to 2007.3
This review was performed at the Internal Revenue Service (IRS) Enterprise Networks
organization office in New Carrollton, Maryland, and the Procurement office in
Oxon Hill, Maryland, during the period June through November 2006. The audit was conducted
in accordance with Government Auditing Standards. Detailed information on our audit

1
  See Appendix V for a Glossary of Terms.
2
  On August 4, 1996, Northrop Grumman Missions Systems, formerly TRW, assumed full control of managing
operations of the nationwide, integrated network for the Department of the Treasury’s bureaus and offices.
3
  On December 21, 2006, the Department of the Treasury announced that it was canceling its request for proposals
for the Treasury Communications Enterprise contract, stating it will use the General Services Administration’s
upcoming Federal Governmentwide telecommunication contract vehicle instead.
                                                                                                          Page 1
                     Telecommunication Projects Need Improved Contract
                          Documentation and Management Oversight



objective, scope, and methodology is presented in Appendix I. Major contributors to the report
are listed in Appendix II.




                                                                                         Page 2
                           Telecommunication Projects Need Improved Contract
                                Documentation and Management Oversight




                                      Results of Review

Project Documentation Did Not Show the Treasury Communications
System Contract Was Considered As an Acquisition Vehicle for
Development of the Enterprise Remote Access Project
While Treasury does not mandate use of the TCS contract by departments and bureaus when
acquiring data communications services, IRS policies and procedures specify that the TCS
contract should be considered first. To ensure the Federal Government receives the best value
product, the Federal Acquisition Regulation4 requires full and open competition among
alternative sources for major system acquisitions. The Federal Acquisition Regulation also
requires agencies to maintain documentation of contract actions including the Federal
Government estimate of contract price and cost proposals from contractors.
For Fiscal Year (FY) 2006, the IRS budgeted $263 million for telecommunication services.
Figure 1 shows the IRS had spent $260 million on telecommunication services as of
September 28, 2006; the Enterprise Networks organization spent $221.5 million of this total.
        Figure 1: FY 2006 Expenditure Amounts for Telecommunication Services
         Organization/Program                                       Amount              Percentage
         Enterprise Networks                                         $221,537,718                 85%
         Web Services                                                  $31,621,752                12%
         Enterprise Services                                            $3,324,829                  1%
         Security Services                                              $2,662,861                  1%
         Unit General Management and Administration                       $510,000       Less than 1%
         Criminal Investigation                                           $146,725       Less than 1%
         Tier B (Small to Medium Investment Projects)                     $130,442       Less than 1%
         Other Organizations with Amounts < $100,000                       $82,806       Less than 1%
         Total                                                       $260,017,133                 99%*
       Source: Associate Chief Information Officer, Management. * = Column does not add to 100 percent
       due to rounding.

Twenty-six percent5 of the expenditures were for data communications services under the TCS
contract. Specifically, the IRS incurred approximately $67 million in TCS costs in FY 2006.

4
    48 C.F.R. ch. 1 (2005).
5
    $66,660,988 divided by $260,017,133.
                                                                                                         Page 3
                      Telecommunication Projects Need Improved Contract
                           Documentation and Management Oversight



The remaining $193 million was spent mostly on other telecommunication services not
associated with data communications (e.g., mobile telephones, local and long distance telephone
services, toll-free telephone services); however, over $62 million was spent on acquiring
telecommunication data processing services outside of the TCS contract. Our analysis of these
expenditures determined that only the costs associated with
the Enterprise Remote Access Project (ERAP) were for data
communications services that would have warranted                    The TCS contract was not
consideration of the TCS contract during the acquisition          considered for the ERAP. As a
process. However, the Project documentation did not show          result, the ERAP may not have
the TCS contract was considered as an acquisition vehicle           been developed in the most
for development of the ERAP. Appendix IV provides an                  cost-effective manner to
                                                                       ensure efficient use of
explanation for the telecommunication data processing                        resources.
services expenditures that did not warrant consideration of
the TCS contract.
The justification for developing the ERAP was to provide a cost-effective Virtual Private
Network (VPN) solution for all IRS personnel working at home under flexi-place
(i.e., telecommuting) or requiring remote access while in travel status because the IRS’
two current VPN solutions were limited. For example, the IRS’ Secure Dial-In solution, which
provided IRS employees with an encrypted connection from remote computers to the IRS
network via dial-up modem connectivity, was subject to the limitation of dial-up modem
technology and was not designed to access and download email messages with large files. While
the IRS Large and Mid-Size Business (LMSB) Division VPN solution did provide broadband
connectivity and secure remote site access, the ERAP Business Case indicated that to properly
scale the LMSB Division VPN solution to meet the needs of the entire IRS was cost prohibitive.
Neither of the IRS’ current VPN solutions (Secure Dial-In and LMSB Division VPN) were
acquired under the TCS contract. Figure 2 shows a comparison of the three VPN solutions.
                         Figure 2: Comparison of VPN Solutions
     Solution                                       Key Features
   Secure        Modem-based VPN solution owned and managed by the IRS.
   Dial-In
   LMSB          Internet-based VPN solution capable of providing broadband connectivity and
   Division      secure, fixed-site access (e.g., at the taxpayer’s location) partially managed by the
   VPN           IRS.
   ERAP          Internet-based VPN solution capable of providing broadband connectivity and
                 secure, fixed-site access fully managed by a contractor.
 Source: ERAP Business Case.

Although the TCS contract offers a VPN-managed service that uses the assets of the Treasury
Internet Access Solution (TIAS) to provide secure remote network access to employees, Project
documentation did not show that it was one of the contracting vehicles considered for the ERAP.

                                                                                                   Page 4
                       Telecommunication Projects Need Improved Contract
                            Documentation and Management Oversight



According to IRS Procurement office officials, three vendors were selected from the General
Services Administration schedule for a detailed technological evaluation, which included
evaluating cost, software, and scalability. A Blanket Purchase Agreement was then issued to the
vendor that provided the best value product for the customer. According to the ERAP Business
Case, this acquisition strategy was selected because the use of an existing Federal Government
contracting vehicle would shorten procurement cycles by simplifying the procurement process.
Although reasons were not documented in the ERAP Project file, both IRS Procurement office
and Enterprise Networks organization personnel offered four reasons why the TCS contract was
not considered for the ERAP. Figure 3 shows the reasons provided by the IRS and our comment
for each reason.
        Figure 3: Reasons Why the TCS Was Not Considered for the ERAP
              IRS Reason                     Treasury Inspector General for Tax Administration
                                                                Comment
   The TCS contract was scheduled        While the TCS contract was to expire in
   to expire in September 2005.          September 2005, the TCS contract was extended until
                                         September 2007, and the anticipated Treasury
                                         Communications Enterprise contract was to require that the
                                         vendor ensure no disruption of current services.
   The TCS TIAS solution did not         Although management provided documentation showing the
   meet established security             TCS contract was considered when comparing alternative
   requirements for the VPN solution.    solutions in FY 2001 for development of the LMSB
                                         Division VPN and that security issues were identified, we
                                         were unable to locate any Project documentation for the
                                         ERAP development effort in FY 2004 indicating the TCS
                                         TIAS solution was considered and that it would not meet
                                         identified security requirements.
   The TCS TIAS solution would be        Both IRS Procurement office and Enterprise Networks
   too expensive because of the          organization personnel were unable to provide any cost
   overhead costs associated with        estimates to support management’s position that the TCS
   services provided under the TCS       TIAS solution would be too expensive.
   contract.
   The TCS TIAS solution could not       We were unable to locate any Project documentation to
   meet the customer’s requirement       support management’s position that the TCS TIAS solution
   that the VPN solution support a       was excluded from consideration because it would not
   dial-up capability.                   support a dial-up capability.
  Source: IRS Procurement office and Enterprise Networks organization personnel and Treasury Inspector
  General for Tax Administration analysis.

Insufficient Project documentation occurred because Modernization and Information Technology
Services management did not ensure documentation was maintained as required by the Federal
Acquisition Regulation to support that the acquisition team considered the TCS contract during

                                                                                                     Page 5
                         Telecommunication Projects Need Improved Contract
                              Documentation and Management Oversight



the procurement process when comparing alternative solutions for telecommunication services.
In fact, our discussions with management and staff from the Enterprise Networks organization
and ERAP Project office indicated the former Director, Enterprise Networks, compared the costs
of remote access solutions and found that services acquired under the TCS contract would be
substantially more expensive. However, by not adequately documenting consideration of the
TCS contract as one of the alternative solutions, the IRS may not have developed the ERAP in
the most cost-effective manner to ensure efficient use of resources.6

Recommendation
Recommendation 1: The Chief Information Officer should ensure project documentation
supports consideration of Treasury contracts during the procurement process when comparing
alternative solutions for telecommunication services.
        Management’s Response: IRS management agreed with this recommendation. The
        Chief Information Officer will communicate to the Enterprise Networks organization the
        importance of following the enterprise life cycle project process. This will ensure
        documentation indicates consideration of Treasury contracts when comparing alternative
        solutions for telecommunication services.

Telecommunication Projects Were Considered Infrastructure Projects
and Not Classified As Major Information Technology Investments
The Clinger-Cohen Act of 1996 (Federal Acquisition Reform Act of 1996) (Information
Technology Management Reform Act of 1996)7 requires agencies to use a disciplined Capital
Planning and Investment Control (CPIC) process to acquire, use, maintain, and dispose of
information technology assets. In addition, Office of Management and Budget (OMB)
Circular A-11, Preparation, Submission, and Execution of the Budget, requires each agency to
include an information technology Investment Portfolio, commonly called Exhibit 53, with its
annual budget submission to the OMB containing the information technology investment title,
description, amount, and funding source. The required information allows the OMB to review
and evaluate each agency’s information technology spending and to compare information
technology spending across the Federal Government.




6
  After discussing the results of the audit with management, we received management comments advising that the
ERAP costs $6,000 less per year than the TCS-managed VPN solution. However, no supporting documentation was
provided and we did not verify the information.
7
  Pub. L. No. 104-106, 110 Stat. 642 (codified in scattered sections of 5 U.S.C., 5 U.S.C. app., 10 U.S.C.,
15 U.S.C., 16 U.S.C., 18 U.S.C., 22 U.S.C., 28 U.S.C., 29 U.S.C., 31 U.S.C., 38 U.S.C., 40 U.S.C., 41 U.S.C.,
42 U.S.C., 44 U.S.C., 49 U.S.C., 50 U.S.C.).
                                                                                                      Page 6
                      Telecommunication Projects Need Improved Contract
                           Documentation and Management Oversight



For the Exhibit 53, the agency should classify each information technology investment as either
major or nonmajor. The OMB defines a major information technology investment as one that
requires special management attention because of certain attributes, including the importance to
an agency’s mission; external visibility; and high development, operating, or maintenance cost.
Major information technology investments require a more stringent CPIC process, including
increased executive oversight and preparation of a detailed Capital Asset Plan and Business
Case, commonly called Exhibit 300. Treasury guidelines require preparation of one consolidated
Exhibit 300 for all infrastructure costs (i.e., telecommunications).
In June 2006, new Treasury guidelines were issued requiring separate (internal) Exhibit 300s for
each project that would otherwise qualify as a major investment, to enable improved
transparency for Treasury investments and enhance accountability. According to Treasury, this
would include individual initiatives for which the annual investment exceeds $5 million or the
total life cycle cost exceeds $50 million. The internal Exhibit 300s are not forwarded to the
OMB as part of Treasury’s information technology Investment Portfolio.
The initial submission of internal Exhibit 300s was due to Treasury on October 15, 2006, even
though the guidelines were not received until June 2006. CPIC organization personnel informed
us that, while they prepared only three internal Exhibit 300s based on discussions with Treasury,
they would begin to review all infrastructure projects in the development, modernization, and
enhancement stage to determine whether additional internal Exhibit 300s are needed. As a
result, the IRS followed the prior practice of including all expenditures for telecommunication
services on its Exhibit 53 as a consolidated information technology infrastructure investment
project and prepared a consolidated Telecommunications Infrastructure Exhibit 300. The Exhibit
300 defined the investment type as steady state (indicating the expenditures were for operations
and maintenance) and reflected the total annual expenditure amount for telecommunications as
maintenance cost.
Figure 4 illustrates the Enterprise Networks organization spent nearly $18.7 million during
FYs 2004 through 2006 for the ERAP and has budgeted another $10.6 million in FY 2007.
Therefore, the Project may meet the IRS CPIC cost thresholds for a major information
technology investment, and an internal Exhibit 300 may need to be prepared as part of the
continuing CPIC organization review of infrastructure projects.




                                                                                          Page 7
                         Telecommunication Projects Need Improved Contract
                              Documentation and Management Oversight



               Figure 4: ERAP Expenditures Between FYs 2004 and 2007
                         Fiscal Year       Annual Amount              Cumulative
                                                                       Amount
                             2004                    $690,402                $690,402
                             2005                 $11,671,843             $12,362,245
                             2006                  $6,306,563             $18,668,808
                                 8
                            2007                  $10,634,987
                      Source: Associate Chief Information Officer, Management, and the
                      ERAP Project Office.
The consolidated Telecommunications Infrastructure Exhibit 300, which contained nearly
$284 million in steady state investments, may include other projects that qualify as major
investments requiring internal Exhibit 300s. For example, the Common Premise Capability
Project,9 which according to the Project Manager had expenditures totaling between $25 million
and $27 million in FY 2005, is another telecommunication investment Project that could require
classifying expenditures as development and/or enhancement costs and preparation of an internal
Exhibit 300.
The classification of information technology investments has been reported previously as a
problem for the IRS. For example, in response to a prior audit report,10 the Chief Information
Officer agreed to review all Applications Development organization projects to ensure they were
properly classified as developmental or steady state and to assign the appropriate level of
executive oversight. Similarly, due to the new guidance, the Enterprise Networks organization’s
infrastructure projects need to be reviewed to identify those projects that are under development
and should be reclassified to ensure appropriate executive oversight and efficient use of
resources.

Recommendation
Recommendation 2: The Chief Information Officer should analyze all (steady state and
development, modernization, and enhancement stage) information technology investments
included in the Telecommunications Infrastructure Exhibit 300 to identify projects under
development that should be classified as major information technology investments requiring
increased executive oversight and preparation of internal Exhibit 300s.



8
  The FY 2007 amount represents the amount budgeted for the ERAP.
9
  The Common Premise Capability Project is intended to upgrade telephone system equipment to Internet protocol
technology to improve performance, security, and data connectivity.
10
   The Electronic Fraud Detection System Redesign Failure Resulted in Fraudulent Returns and Refunds Not Being
Identified (Reference Number 2006-20-108, dated August 9, 2006).
                                                                                                       Page 8
              Telecommunication Projects Need Improved Contract
                   Documentation and Management Oversight



Management’s Response: IRS management agreed with this recommendation. The
CPIC organization will provide training and guidance to Enterprise Networks
organization project managers and executives to ensure compliance with existing
Treasury guidance that requires infrastructure projects in the development,
modernization, and enhancement phase of the life cycle to develop internal Exhibit 300s
if they meet the criteria for a major project. In addition, the CPIC organization will
review all projects in the Telecommunications Infrastructure
Exhibit 300 to ensure proper classification.




                                                                                 Page 9
                           Telecommunication Projects Need Improved Contract
                                Documentation and Management Oversight



                                                                                              Appendix I

            Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the IRS ensures
telecommunication services acquired outside of the TCS contract are cost effective and do not
duplicate services offered through the TCS contract. To accomplish this objective, we:
I.        Determined the amounts budgeted and expended by the IRS for telecommunication
          services for FYs 2005 through 2007.
          A. Obtained a download from the IRS Integrated Financial System1 identifying total
             expenditures for telecommunication services in FYs 2005 and 2006 for each
             telecommunication project and the amounts budgeted for FY 2007. We relied on the
             Government Accountability Office’s assessment of the reliability of the
             computer-processed data from the Integrated Financial System. During a review of
             the IRS’ financial statements,2 the Government Accountability Office concluded the
             expense and reimbursable revenue information processed through the System for
             FYs 2005 and 2006 was reliable in all material respects.
          B. Met with Enterprise Networks organization management and staff to discuss FY 2005
             TCS expenditure amounts and the budgeted amounts for FY 2006.
          C. Reviewed the IRS Main Account (TCS Program Financial Plan) to identify
             Bureau-Specific Costs and Shared Costs for FYs 2005 through 2007.
          D. Reviewed correspondence between the IRS and Treasury regarding the IRS’ financial
             plan amounts for FYs 2005 through 2007, including concessions made by Treasury
             and the resulting adjustments to the IRS Working Capital Fund Program
             requirements.
          E. Identified the TCS contract actual expenditure amounts by category for FYs 2005 and
             2006 and estimated expenditure amounts by category for FY 2007.
II.       Evaluated controls over telecommunication services acquired outside of the TCS
          contract.
          A. Reviewed TCS program policies and procedures for acquiring telecommunication
             services, including any fees for add-on services and bundled services and the
             approval process for acquisitions. In addition, we reviewed the Internal Revenue


1
    See Appendix V for a Glossary of Terms.
2
    Financial Audit: IRS’s Fiscal Years 2006 and 2005 Financial Statements (GAO-07-136, dated November 2006).
                                                                                                      Page 10
              Telecommunication Projects Need Improved Contract
                   Documentation and Management Oversight



   Manual and other directives governing the acquisition process for telecommunication
   services both within and outside of the TCS program.
B. Met with TCS Program Management Office and Enterprise Networks organization
   management and staff to identify the services available in the TCS contract,
   procedures for acquiring telecommunication services outside the TCS contract, and
   efforts to ensure IRS telecommunication projects do not duplicate service available
   through the TCS contract.
C. Obtained from the Enterprise Networks organization a list of all telecommunication
   projects acquiring services outside of the TCS contract and met with other
   organizational functions with expenditures for telecommunication services to identify
   projects that warranted consideration of the TCS contract.
D. For the telecommunication projects identified in Step II.C. that warranted
   consideration of the TCS contract, determined whether a business justification was
   completed supporting the acquisition, a cost-benefit analysis was completed
   comparing alternative solutions to services available under the TCS contract and the
   telecommunication services solution selected was both the most feasible and
   cost-effective, services acquired duplicate any of the shared (bundled) services
   currently offered under the TCS contract, and associated costs for services were
   identified.




                                                                                 Page 11
                     Telecommunication Projects Need Improved Contract
                          Documentation and Management Oversight



                                                                              Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs)
Gary Hinkle, Director
Danny Verneuille, Audit Manager
Phung-Son Nguyen, Senior Auditor
Van Warmke, Senior Auditor
Olivia DeBerry, Auditor




                                                                                     Page 12
                    Telecommunication Projects Need Improved Contract
                         Documentation and Management Oversight



                                                                          Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Chief, Agency-Wide Shared Services OS:A
Deputy Chief Information Officer OS:CIO
Acting Associate Chief Information Officer, Enterprise Networks OS:CIO:EN
Director, Procurement OS:A:P
Director, Stakeholder Management Division OS:CIO:SM
Director, Capital Planning and Investment Control OS:CIO:M:CP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Deputy Commissioner for Operations Support OS
       Chief, Agency-Wide Shared Services OS:A
       Acting Associate Chief Information Officer, Enterprise Networks OS:CIO:EN
       Director, Procurement OS:A:P
       Director, Program Oversight OS:CIO:SM:PO




                                                                                   Page 13
                       Telecommunication Projects Need Improved Contract
                            Documentation and Management Oversight



                                                                                 Appendix IV

   Analysis of Telecommunication Data Processing
 Services Expenditures Not Warranting Consideration
  of the Treasury Communications System Contract

       Title                                           Description
Web Services          This project involves maintenance for the three IRS portals (IRS.gov,
                      Employee User Portal, and Registered User Portal) that were originally
                      developed as part of the Business Systems Modernization program and were
                      moved to the current processing environment for production. The project was
                      excluded from further analysis because the IRS has extended the maintenance
                      contracts only to allow time to migrate the projects to using commercial
                      off-the-shelf software. In FY 2006, $25.5 million had been expended on the
                      project through July 23, 2006.
Unit General          These are expenditures by the Modernization and Information Technology
Management and        Services organization that are not associated with a specific
Administration        telecommunication services project or Associate Chief Information Officer
                      area. For example, the $1.8 million expended in FY 2005 was the IRS’ share
                      of the attorney fees associated with the award and protest of the new Treasury
                      Communications Enterprise contract. The FY 2006 expenditures totaling
                      $510,000 paid to a contractor were on an existing contract for support and
                      maintenance of the current production systems within a web-based
                      environment.
Enterprise Services   These are expenditures for contractor services for FY 2006 totaling
                      $3.3 million. The expenditures were excluded from further analysis because
                      they represent contractor support for general project planning, Enterprise Life
                      Cycle documentation, engineering, security, etc.
Common                This project, which was budgeted to receive only $50,000 in FY 2006, was
Communications        excluded because it is an internal activity monitoring and intrusion detection
Gateway               system developed to consolidate and standardize design requirements for all
                      external interfaces to the IRS network.
Common Premise        This project is the IRS’ voice over Internet protocol solution. The project was
Capability            excluded from further analysis because the current project activities involve
                      replacement of voice telecommunication equipment that was aligned under the
                      infrastructure roadmap initiative and paid with FY 2005 funds that had to be
                      spent by September 2006. The project was not funded in FY 2006.
                                                                                          Page 14
                      Telecommunication Projects Need Improved Contract
                           Documentation and Management Oversight



                                                                               Appendix V

                                Glossary of Terms

Capital Asset Plan and Business Case          Required by OMB Circular A-11, Preparation,
                                              Submission, and Execution of the Budget, dated
                                              June 2005, and commonly called Exhibit 300.
                                              Each agency must submit an Exhibit 300 twice
                                              each year for each major information
                                              technology investment.
Capital Planning and Investment Control       A management process for the ongoing
                                              identification, selection, control, and evaluation
                                              of investments in information resources focused
                                              on agency missions and achieving specific
                                              program outcomes.
Data Communications                           The electronic transmission of information that
                                              has been encoded digitally for storage and
                                              processing by computers.
Development, Modernization, and               Costs for the development, modernization, and
Enhancement Investments                       enhancement investments include costs for new
                                              investments and changes or modifications to
                                              existing systems to improve capability or
                                              performance.
Indefinite Delivery/Indefinite Quantity       Contracts allowing the Federal Government to
Contracts                                     acquire an indefinite quantity, within stated
                                              limits, of supplies or services during a fixed
                                              period with deliveries or performance to be
                                              scheduled by placing orders with the contractor.
Information Technology Investment Portfolio   Required by OMB Circular A-11 and
                                              commonly called Exhibit 53. This portfolio
                                              must be submitted with each agency’s annual
                                              budget submission and contain the information
                                              technology investment title, description,
                                              amount, and funding source.




                                                                                        Page 15
                     Telecommunication Projects Need Improved Contract
                          Documentation and Management Oversight



Integrated Financial System                  An administrative accounting system used by
                                             the IRS.
Steady State Investments                     Costs for routine maintenance and operational
                                             costs at current capability and performance level
                                             including costs for personnel, maintenance of
                                             existing information systems, corrective
                                             software maintenance, voice and data
                                             communications maintenance, and replacement
                                             of broken equipment.
Telecommunication Data Processing Services   Represents services contracted from
                                             non-Federal Government sources in support of
                                             telecommunication programs.
Virtual Private Network                      A data transport mechanism deployed on a
                                             public or shared communications infrastructure,
                                             like the Internet, that simulates a private
                                             network through use of privacy-enhancing
                                             technology (e.g., encryption).




                                                                                      Page 16
       Telecommunication Projects Need Improved Contract
            Documentation and Management Oversight



                                                 Appendix VI

Management’s Response to the Draft Report




                                                       Page 17
Telecommunication Projects Need Improved Contract
     Documentation and Management Oversight




                                                Page 18
